                                                          NATIONAL SCIENCE FOUNDATION
                                                           OFFICE OF INSPECTOR GENERAL
                                                             OFFICE OF INVESTIGATIONS

                                                   CLOSEOUT MEMORANDUM

 Case Number: Al1020013                                                                          Page 1 of 1



                                                                                                           pe
                  An institution l notified us that it had identified the misapplication of NSF funds 2 by its in
         the administration of a scholarship program. The institution specifically identified students who
         received scholarship assistance while technically ineligible under the program. 4 The institution also
         informed us that the PI had failed to constitute and utilize the scholarship selection committee as
         described in the NSF award. When we asked for additional documentation, we learned that the
         institution had not obtained a financial conflict of interest (COl) disclosure from the PI under the
         rationale that the NSF policy did not apply to scholarship programs. We identified no such
         exception or supportable rationale for that position.

               The institution has taken steps to obtain COl disclosures and to utilize the selection
         committee as described in the proposal.

                    Accordingly, this case is closed.




         4   The total amount involved was less than 1% oftbe total award amount.




NSF OIG Form 2 (1II02)
